No.

IN THE
SUPREME COURT OF THE UNITED STATES

Lisa Truong-As a pro se PETITIONER
VS.
UTC Aerospace Systems - RESPONDENT(S)
PROOF OF SERVICE
I, Lisa Truong, do swear or declare that on this date: March 27, 2021, as required by Supreme
Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party's counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows:

C/o Julia A. Pozo
Seyfarth Shaw LLP
700 Milam Street, Suite 1400
Houston, Texas 77002-2812

I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 27, 2021

(Signatj/p£

No.

IN THE
SUPREME COURT OF THE UNITED STATES

Lisa Truong-As a pro se PETITIONER
VS.
UTC Aerospace Systems - RESPONDENT(S)
PROOF OF SERVICE
I, Lisa Truong, do swear or declare that on this date: March 27, 2021, as required by Supreme
Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party's counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.
The names and addresses of those served are as follows:
C/o Kyle A. Peterson
Seyfarth Shaw LLP
233 S. Wacker Dr., Suite 8000
Chicago, IL 60606
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 27,2021

(Signature)

